U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Callan Campbell, et al. v. United States of America,
S.Ct.No. 19-1252

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 20,
2020, and placed on the docket on April 28, 2020. The government's response is due on May
28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 29, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1252
CAMPBELL, CALLAN, ET AL.
USA

ROBERT H. THOMAS
DAMON,KEY, LEONG,KUPCHAK,HASTERT
1600 PAUAHI TOWER
1003 BISHOP STREET
HONOLULU, HI 96813
808-531-8031
RHT@HAWAIILAYWER.COM

